WAIVER

Supreme Court of the United States

No. 19-355

Kohlberg Ventures, LLC vy. Peter Wojciechowski, on Behalf of
Himself and on Behalf of All Others
Similarly Situated

(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court,

va check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.

oO There are multiple respondents, and I do not represent all respondents, Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

Jam a member of the Bar of the Supreme Court of the United States.

a lam not presently a member of thé Bar of this Court. Should a response be requested,

the response will be filed by a Bay member.
Signature Sick

 

 

 

 

Date: Vet. 2, W084
(Type or print) Name Dake A 2 Korsne c
Yr OMs. O Mrs, Ci Miss

Firm Quen € Gisidea LLP
Address. SS Thicd Avenue 25% too
City & State__New No lk + NY Zip 100 {73
phone (2.12) 2.45 = 1000
SEND A COPY OF THIS FORM T0 PETITIONER'S COUNSEL OR TO PETITIONER IF

PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

 

 

Ce: DAN EL L Theme

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.eupremecourtus.gov. Have the Supreme Court docket number available.

 

:
5
